Via Electronic Filing and Regular Mail

October 1, 2019

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 19-368, Ford Motor Company v. Montana Eighth Judicial District Court

Dear Mr. Harris:
I hereby enter my appearance as counsel of record for respondent Charles Lucero,
personal representative of the Estate of Markkaya Jean Gullett, and seek an extension of the
time to file a response to the petition for certiorari. The response is currently due on October
21, 2019. For the following reasons, I request a 30-day extension to and including November
20, 2019. Petitioner Ford Motor Company consents to this request.
I will have principal responsibility for preparing the brief in opposition to the petition.
Because our firm was not retained in this case until this week, my colleagues and I will require
additional time to familiarize ourselves with the record and the legal issues in this case and
prepare an adequate response to the petition. Furthermore, we have several upcoming
deadlines and obligations that will prevent us from devoting adequate time to the response
absent an extension. These include a petition for a writ of certiorari due in this Court on
October 2; an amicus brief due in this Court on October 4 (in DHS v. Regents); a merits brief
due in the Third Circuit on October 9; a brief in opposition due in this Court on October 10 (in
Fulton v. City of Philadelphia); a merits brief due in the Eleventh Circuit on October 16; a
merits brief due in this Court on October 21 (in Intel v. Sulyma); a merits brief due in the
Fourth Circuit on October 22; a petition for a writ of certiorari due in this Court on November
4; and a merits brief due in the Montana Supreme Court on November 15. A 30-day extension
will allow us to balance these other responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741
guptawessler.com

F 202 888 7792

Deepak Gupta

